U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General
                                          




                  National
    Telecommunications and
 Information Administration


                Broadband Program
        Faces Uncertain Funding,
  and NTIA Needs to Strengthen
        Its Post-Award Operations


               Final Report No. OIG-11-005-A
                            November 4, 2010




                  FOR PUBLIC RELEASE



               Office of Audit and Evaluation




                                          
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230




November 4, 20 I0


MEMORANDUM FOR:	              Lawrence E. Strickling
                              Assistant Secretary
                              for Communications and Information
                              National Telecommunications and Information Administration



FROM:	                        Ann C. Eilers   ~ t £k6
                              Principal Assistant Inspector General
                              Office of Audit and Evaluation


SUBJECT:	                     Broadband Program Faces Uncertain Funding, and NTIA
                              Needs to Strengthen its Post-Award Operations
                              Final Audit Report No. OIG-II-005-A

This memorandum transmits our final report on the National Telecommunications and
Information Administration's (NTIA's) efforts to establish an effective post-award process for
the Broadband Technology Opportunities Program (BTOP).

We discussed our findings with senior BTOP officials on August 4, 2010, and provided you with
a draft report on September 24. In the draft report, we expressed our concern that there was no
authority or funding to provide oversight of BTOP grants beyond September 30, 20 I0, and that
while NTIA has made significant progress with its post-award operations, additional steps are
needed to ensure effective oversight of a portfolio of about $4 billion in grant awards. Since the
draft report, our concerns have increased because the continuing resolution NTIA is operating
under did not include funds to administer BTOP and monitor the more than 230 grants that have
been awarded.

Your October 22 response to our draft report affirms that NTIA is taking appropriate action to
address the recommendations in the report and discusses steps that it has initiated. The response
provides details about the lack of funding for grant oversight, and expresses NTIA's concern that
its ability to maintain BTOP after the continuing resolution expires on December 3 will depend
upon Congress taking action before that date to appropriate adequate funding for FY 2011. We
share your concern that a lack of oversight funding and its impact on NTIA's oversight of the
awards substantially increases the risk of delay in grant projects and jeopardizes NTIA's ability
to guard against waste, fraud, and abuse. Therefore, we encourage you to work with the
Department, the Office of Management and Budget, and Congress to secure funds to administer
the program. We summarize your response in our audit report and have included it in its entirety
as appendix B. Also, we are pleased that NTIA has already taken steps to address the
deficiencies we noted in our draft report.

In accordance with Department Administrative Order 213-5, please provide us with an audit
action plan within 60 days of the date of this memorandum. Please accept our thanks to NTIA
and its operating units for the courtesies shown to us during our field work. If you have any
questions, please contact me at (202) 482-2754 or Chris Rose at (202) 482-5558.

cc: 	   Scott Quehl, Chief Financial Officer and Assistant Secretary for Administration
        Kathy Smith, NTIA Chief Counsel




                                                                                                 
                                   Report In Brief
                                               U.S. Department of Commerce Ofﬁce of Inspector General
                                                                  November 4, 2010



Why We Did this Review                 American Recovery and Reinvestment Act
The Broadband Technology Op-
portunities Program (BTOP) is          Broadband Program Faces Uncertain Funding, and NTIA
the largest grant program that the     Needs to Strengthen Its Post-Award Operations
National Telecommunications and
Information Administration (NTIA)      (OIG-11-005-A)
has managed to date. With BTOP,
NTIA has had to confront a number      What We Found
of challenges, including stafﬁng a
program ofﬁce, developing rules
and regulations, coordinating de-      NTIA has completed both funding rounds of its broadband grant awards. By September 30,
velopment activities with other de-    2010, NTIA had made almost $4 billion in awards to over 230 recipients, making BTOP
partments and agencies, awarding       the largest grants program NTIA has ever managed. With the announcement of the last
grants, and performing effective       awards, NTIA’s focus has shifted to monitoring this diverse portfolio of grants, which were
oversight of activities.               awarded to a wide variety of recipients, including public entities, for-proﬁts, nonproﬁts,
                                       cooperative associations, and tribal entities. While NTIA has been proactive in its establish-
We initiated this review in April
2010 as part of our continuing         ment of a post-award oversight program, we did ﬁnd the following causes for concern:
oversight of the BTOP grant award   1. 	 NTIA has developed many new processes to assist BTOP’s program ofﬁce and grant
process. Our audit examined
                                         recipients with post-award activities, but the program will have no federal funding
NTIA’s efforts to develop and
implement effective policies and         source after December 3, 2010. This lack of future funding will hinder the agency’s
procedures, systems, and post-           efforts to provide effective long-term oversight of grants, as NTIA will not be able
award oversight.                         to maintain the comprehensive oversight program it developed to monitor BTOP.
                                         Reduced monitoring may mean that NTIA will be less able to ensure that the grant
Background                               projects successfully meet program objectives. NTIA will have to prioritize its future
On February 17, 2009, the President      oversight activities carefully so that long-term program monitoring does not suffer.
signed the American Recovery and
Reinvestment Act of 2009 into law.
                                    2. 	   Despite the potential lack of funding, NTIA’s post-award monitoring and oversight
The Recovery Act gave $4.7 billion         practices need to be strengthened in several ways. First, some agreements with other
to NTIA to establish BTOP, a com-          Commerce agencies are unclear and have not been carefully managed. In addition,
petitive grant program intended to         there is a knowledge gap between the staff of the contractor that designed BTOP’s soft-
provide funds for deploying broad-         ware systems and the NTIA staff who must maintain the systems. NTIA also does not
band infrastructure in unserved and        have a robust means for tracking employee training and development. While NTIA has
underserved areas of the United
States, enhance broadband capacity
                                           created new manuals and guidance to help employees and grantees understand BTOP,
at public computer centers, improve        several of the manuals lack important details about policies and procedures. Finally,
access to broadband services for           some aspects of award monitoring are not being completed promptly or efﬁciently.
public safety agencies, and promote
sustainable broadband adoption
projects.

Almost $4 billion in BTOP grants       What We Recommended
were awarded in time to meet the
Recovery Act deadline of Sep-
tember 30, 2010. The act did not
                                       We made several recommendations to NTIA with the intention of improving internal
provide for funding after that date;   controls, promoting transparency, and increasing efﬁciency. According to NTIA’s response
therefore, BTOP is operating under     to our draft report, the agency is taking many of our recommendations into consideration.
a continuing resolution until De-      Based on the agency’s response, our current recommendations include:
cember 3. After December 3, NTIA
will be faced with very limited        • 	 managing the future lack of funding for BTOP by developing alternative approaches to
resources with which to perform            monitoring and oversight, and revising manuals and documentation accordingly; and
post-award monitoring, support of      • 	 ensuring that agreements with other agencies, manuals and guidance, training and
grantees, and prevention of fraud,
waste, and abuse.
                                           development, and monitoring procedures are clearly documented and fully adhered to.
U.S. Department of Commerce                                                                              Final Report No. OIG-11-005-A

Office of Inspector General                                                                                           November 4, 2010 



                                                                 Contents


Introduction..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 6 

   I.      Uncertain Funding Poses a Challenge to NTIA’s Oversight of Broadband Grants ............ 6 

   II. Post-Award Monitoring and Oversight Need to Be Strengthened....................................... 7 

        A. Memorandums of Understanding with Commerce Agencies Are Unclear, and NTIA 

        Has Not Been Overseeing the Agreements Carefully ............................................................. 7 

        B. NTIA Staff Members Have Not Received Sufficient Technical Knowledge Transfer 

        Documentation and Training to Effectively Maintain Contractor Provided IT Systems ........ 9 

        C. While NTIA Has Made Progress in Documenting BTOP Policies and Procedures, 

        Additional Steps Should Be Taken........................................................................................ 10 

        D. Internal Controls over Professional Development and Training Are Not Robust ......... 12 

        E. Some Aspects of BTOP Award Monitoring Are Not Being Completed in a Timely or 

        Efficient Manner.................................................................................................................... 13 

Summary of Agency Comments and OIG Response.................................................................... 15 

Appendix A: Objectives, Scope, and Methodology ..................................................................... 16 

Appendix B: Agency Response to Draft Report........................................................................... 18 





                                                                                                                                                    
U.S. Department of Commerce                                                               Final Report No. OIG-11-005-A

Office of Inspector General                                                                            November 4, 2010 



                                                               Introduction


On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
2009 into law.1 The Recovery Act gives the Department of Commerce’s National
Telecommunications and Information Administration (NTIA) $4.7 billion to establish the
Broadband Technology Opportunities Program (BTOP).2 BTOP is a competitive grant program
intended to provide funds for deploying broadband infrastructure in unserved and underserved
areas of the United States, enhance broadband capacity at public computer centers, improve
access to broadband services for public safety agencies, and promote sustainable broadband
adoption projects. BTOP appropriations and uses of funds are broken down in table 1.


            Table 1. BTOP Funding: Appropriations and Actual Fund Use
                                                                              Appropriationa             Actual
Category
                                                                               (in millions)          (in millions)

Broadband Infrastructure                                                        $ 3,729                   $3,485

State Broadband Data and Development Program                                        350                      312

Sustainable Broadband Adoption                                                      250                      251

Public Computer Center                                                              200                      201

Rescission                                                                            -                      302

Otherb                                                                              171                      147

Total                                                                           $ 4,700                  $ 4,698
Source: OIG, based on NTIA data.
a
  Includes “up to” amount for State Broadband Data and Development program, “not less than” amounts
for Sustainable Broadband Adoption and Public Computer Center grants, transfer of $10 million to OIG
for oversight, up to $141 million for administrative expenses, and transfer to Federal Communications
Commission of funds needed to develop a national broadband plan.
b
  Includes transfer to OIG, transfer to Federal Communications Commission, and administrative
expenses. Figures have been rounded.


Because BTOP is a new program, NTIA has had to confront a number of challenges involved in
implementing it, including staffing a program office, developing grant program rules and
regulations, coordinating development activities with other departments and agencies (such as
the Department of Agriculture and the Federal Communications Commission), awarding a
contract to provide program support, awarding grants, initiating award monitoring, and
                                                            
1
  Pub. L. No. 111-5, § 6001, 123 Stat. 115 (2009).

2
  A recent public law rescinded $302 million from the Broadband Technology Opportunities Program. Pub. L. No. 

111-226, § 302, 124 Stat. 2404 (2010). 



                                                                    1
 
U.S. Department of Commerce                                             Final Report No. OIG-11-005-A

Office of Inspector General                                                          November 4, 2010 



performing effective oversight of activities. Expenditures to develop and manage this new
program were limited to 3 percent of the program appropriation ($141 million).
The Recovery Act required all awards to be made by September 30, 2010, and did not provide
additional funding after that date. As of September 30, NTIA had made around $3.9 billion in
Broadband Infrastructure, Public Computer Center (PCC), and Sustainable Broadband Adoption
(SBA) awards, and had reached its funding target for PCC and SBA projects. Figure 1 presents
the total number and dollar amount of awards for infrastructure, PCC, and SBA as of September
30, and provides insight into the size of specific awards by each category.


              Figure 1. BTOP Awards, as of September 30, 2010




       Source: OIG


As shown in figure 1, infrastructure projects are generally the largest dollar awards (some are for
over $100 million) and present a challenge in that they generally necessitate the completion of an
environmental assessment. Environmental assessments require months to complete, and because
programs need to be substantially complete (meaning awardees have met 67 percent of their
milestones and received 67 percent of their funding) within 2 years and fully complete within
3 years, the resulting delays can affect project timelines. Of the 233 awards made as of
September 30, 2010, more than 100 (representing nearly $3.1 billion in funding) will require
environmental assessments to be completed before certain actions related to the project can be
performed. As of October 8, 31 draft environmental assessments had been submitted to NTIA
and 11 had been finalized.
As the process to award grant funds has ended, NTIA will now be responsible for overseeing a
diverse portfolio of awards that will present several new challenges. For example, BTOP awards
have been made to many different types of recipients, including public entities, for-profits,
nonprofits, cooperative associations, and tribal entities. Table 2 (on the next page) identifies the
diverse set of award recipients with which NTIA will be working. This will be the first time that


                                                 2
 
U.S. Department of Commerce                                               Final Report No. OIG-11-005-A

Office of Inspector General                                                            November 4, 2010 



NTIA has made awards to for-profit companies, which represent approximately 25 percent of
BTOP awards. Awards also differ in terms of experience of the recipient in administering federal
awards, the size of the award, and the need to satisfy special award conditions such as
environmental requirements.


                        Table 2. BTOP Funding by Entity Type

                                       Number of          Funding Amount          % of Total
  Entity Type
                                        Grants              (in millions)       Funding to Date
  Public                                    109                  $1,937                 49.2
  Non-Profit                                58                      831                 21.2
  For-Profit                                50                      813                 20.7
  Cooperative a                              10                     310                  7.9
  Tribal Entity                               6                      45                  1.1
  Total                                    233                   $3,936                100.0
   Source: OIG 

 a
   Cooperative refers to member-owned organizations that provide members with telecommunication 

   services.



The spending rate of BTOP funds will also need to be closely monitored. As of September 30,
2010, the following obligations and expenditures had occurred with respect to BTOP awards,
and total funds committed to BTOP were $4.26 billion (see figure 2). Not only has $3.94 billion
in federal funds been obligated for awards, but recipients also have pledged a match of
$1.42 billion, representing about 36 percent of total BTOP funding.


Figure 2. BTOP Obligations & Expenditures as of September 30, 2010



                                        Obligated 
                                      funds: $4.26 B




                  Amount spent: 
                    $92.6 M




             $0            $1,000      $2,000           $3,000       $4,000       $5,000

            Source: OIG



                                                   3 
 U.S. Department of Commerce                                            Final Report No. OIG-11-005-A

 Office of Inspector General                                                         November 4, 2010 



 Monitoring such a large and diverse portfolio of awards will require significant attention. NTIA
 has been developing a proactive approach to monitoring BTOP awards while concurrently
 accepting, reviewing, and announcing additional awards. With the announcement of the last
 awards, NTIA’s focus will be on monitoring its portfolio of awards. Therefore, NTIA has taken
 an aggressive posture in establishing a post-award program that will involve several elements:

  1. Establishing  
                      2. Issuing  grants        3. Providing          4. Monitoring 
post award team,                                                                           5. Performing 
                       and providing           training  and          special award  
    developing                                                                              desk reviews 
                      award packages         technical support       conditions and 
systems, policies,                                                                         and  site visits. 
                        to recipients          to recipients            reporting.
 and procedures.


 1.	 Establishing post award team and developing systems/policies/procedures. NTIA dedicated
     staff to serve as federal program officers (FPOs) to monitor BTOP grants, developed several
     guidance manuals, provided training to guide the FPOs in their oversight efforts, and
     implemented two systems to monitor and oversee grant projects. We will discuss NTIA’s
     efforts further in our second finding.
 2.	 Issuing grants and providing award packages to recipients. Each recipient received a
     welcome package containing an overview of BTOP, guidance on the next steps to be taken,
     and identification of their assigned FPO. These welcome packages were followed by
     individual calls from the FPOs, orientation conferences, and “drop-in” conference calls.
 3.	 Providing training and technical support to recipients. NTIA personnel have actively
     supported BTOP recipients by providing them with training and technical assistance,
     including a post-award workshop and multiple webinars on such topics as compliance,
     procurement, and program performance reporting.
 4.	 Monitoring special award conditions and recipient reporting. BTOP maintains a spreadsheet
     to monitor recipients’ special award conditions (SACs) relating to such issues as
     environmental compliance and accounting system verifications that must be met, and
     identified a series of progress reports that must be provided. We will discuss SACs further in
     finding II.E.
 5.	 Performing desk reviews and site visits. Site visits and desk reviews (reviews by FPOs of
     recipient-submitted performance and financial reports and other data available to the program
     office), will be the two principal tools NTIA will use to monitor the progress of recipients.
 Under the Recovery Act, inspectors general are expected to be proactive in their oversight and
 focus on prevention. To meet this expectation, we provided guidance to NTIA on establishing
 appropriate internal controls; we also participated in the workshops supporting the first and
 second funding rounds, briefing potential applicants about the Recovery Act’s accountability and
 transparency requirements; and in a post-award workshop, briefing recipients on pertinent issues
 and on fraud prevention.
 In our initial report on BTOP, National Telecommunications and Information Administration:
 NTIA Must Continue to Improve Its Program Management and Pre-Award Process for Its
 Broadband Grants Program (April 2010), we stated that NTIA needed to ensure sufficient staff
 to run the program; improve the documentation of policies, procedures, and management
 decisions; overcome system challenges encountered in the first round; and closely monitor


                                                  4
 
U.S. Department of Commerce                                           Final Report No. OIG-11-005-A

Office of Inspector General                                                        November 4, 2010 



compliance with environmental laws during post-award. NTIA has been responsive to these
recommendations.
In April 2010, we continued our oversight by initiating this audit of NTIA’s post-award efforts to
implement systems, develop policies and procedures, and establish an oversight organization.
Appendix A of this report outlines the objectives, scope, and methodology we followed for the
review. OIG is also working with NTIA to develop a program-specific audit guide for BTOP
award recipients that are for-profit entities.




                                                5
 
U.S. Department of Commerce                                                               Final Report No. OIG-11-005-A

Office of Inspector General                                                                            November 4, 2010 



                                                           Findings and Recommendations


    I.        Uncertain Funding Poses a Challenge to NTIA’s Oversight of Broadband Grants

Recipients of infrastructure project funding have up to 2 years to substantially complete projects
and up to 3 years to fully complete projects. Therefore, some projects are not expected to be
complete until 2013, and NTIA will need to provide continued oversight of the grants for several
years after they are issued. However, the Recovery Act does not provide budget authority for
BTOP-funded projects beyond the September 30, 2010, deadline for issuing funds. NTIA
requested approximately $24 million in funding for grant monitoring from Congress for FY
2011, but a budget was not approved; therefore, NTIA is operating under a continuing resolution
until December 3, 2010.
The continuing resolution did not provide funds to operate BTOP. Instead, NTIA is operating the
program through a deficiency apportionment authorized by the Office of Management and
Budget. While this apportionment does not provide additional dollars beyond what is approved
in the continuing resolution, it does enable NTIA, in its judgment, to spend at a rate that will
allow the program to be maintained through December 3. However, NTIA is concerned that
without sufficient funding, its ability to effectively administer the program beyond that date will
be threatened.
The uncertainty regarding oversight funding for FY 2011 raises significant concerns about the
adequacy of future BTOP oversight. Without sufficient resources, NTIA will be challenged to
monitor its diverse awards, and it will also be unable to provide the comprehensive oversight
program that it has developed to monitor BTOP. Moreover, NTIA has invested time and effort in
training BTOP staff, developing and implementing the tools needed to perform grant monitoring,
and training and providing grant implementation guidance to grantees. The potential effects of
reduced award monitoring include a decreased capability to minimize waste, fraud, and abuse.
Reduced monitoring may also result in a lessened ability to ensure that the grant projects
successfully meet program objectives. NTIA will have to prioritize its future oversight activities
carefully so that long-term program monitoring does not suffer.
In its August 2010 report Recovery Act: Further Opportunities Exist to Strengthen Oversight of
Broadband Stimulus Program, The U.S. Government Accountability Office (GAO)
recommended that to ensure effective monitoring and oversight of BTOP, NTIA should
incorporate into its monitoring plans ways to address the variability in funding levels for post-
award oversight beyond September 30, 2010. 3 We concurred with GAO and recommended that
NTIA develop alternative oversight approaches based on different potential funding levels;
NTIA will also need to modify its documents outlining its monitoring and oversight approaches
to reflect the funding levels it eventually receives.
In its FY10 BTOP Monitoring Plan, NTIA defined a comprehensive award oversight approach
that involves monitoring, program reporting, and technical assistance. NTIA officials stated that
their ability to implement the plan is contingent upon receiving the funds it requested for FY

                                                            
3
 GAO, August 2010. Recovery Act: Further Opportunities Exist to Strengthen Oversight of Broadband Stimulus
Programs, GAO-10-823, p. 31.


                                                                        6
 
U.S. Department of Commerce                                             Final Report No. OIG-11-005-A

Office of Inspector General                                                          November 4, 2010 



2011. In its October 22, 2010, response (see appendix B) to our draft report, NTIA stated that it
is now determining the feasibility of operating at the lower funding levels proposed by
congressional appropriations committees prior to the enactment of the continuing resolution.


Recommendations

We recommend that NTIA
      1.	 develop alternative approaches to monitoring and oversight based on different funding
          levels; and
      2.	 revise its monitoring plan and FPO and recipient handbooks to reflect the steps to be
          performed with the funding received.


II.    Post-Award Monitoring and Oversight Need to Be Strengthened

After September 30, 2010, NTIA will be responsible for monitoring a portfolio of grant awards
that is larger and more diverse than it has previously overseen. NTIA has made significant
progress in establishing systems to facilitate grants administration and management; developing
comprehensive policies, procedures, and processes to oversee BTOP; and establishing a program
office to monitor and manage the BTOP grant awards. However, we identified several areas
where NTIA should strengthen its grant monitoring and oversight:
      •	 memorandums of understanding (MOUs) with other Commerce bureaus supporting
         NTIA’s administration and oversight of the agreements;
      •	 vendor management oversight;
      •	 post-award policies and procedures;
      •	 internal controls over professional development and training; and
      •	 monitoring of grant recipients.


A. Memorandums of Understanding with Commerce Agencies Are Unclear, and NTIA Has 

   Not Been Overseeing the Agreements Carefully 

Lacking a grants management office of its own, NTIA entered into a $4.15 million MOU with
the National Oceanic and Atmospheric Administration (NOAA) and a $2.23 million service level
agreement with the National Institute of Standards and Technology (NIST) to provide grants
administration and management services for BTOP. NOAA manages infrastructure grants while
NIST manages PCC, SBA, and State Broadband Data and Development (mapping) grants.
Responsibilities of and relationships between these parties must be clearly understood, as only
the grants officers at NOAA and NIST can approve or issue amendments to grant awards.
We reviewed the two interagency agreements. The MOU details the roles and responsibilities of
each agency; however, the service level agreement for NIST describes the relationship with and
obligations to NTIA in more general terms than the agreement with NOAA. Specifically, we
found that the agreement with NIST does not specify the deliverables it is expected to produce


                                                  7
 
U.S. Department of Commerce                                                              Final Report No. OIG-11-005-A

Office of Inspector General                                                                           November 4, 2010 



for NTIA. Additionally, the service level agreement does not clearly detail roles and
responsibilities of each agency, nor does it state any method for measuring performance under
the agreement.
The Commerce Acquisition Manual states that for interagency agreements, “the parties must
collaborate effectively in order to establish a strategy to apply acquisition processes and tools in
the most effective manner possible.”4 Therefore, it is essential that interagency agreements
outlining roles and responsibilities (e.g., MOUs and service level agreements) are clear to the
parties and that effective oversight of the agreements is performed.
While the MOU with NOAA more clearly documents the roles and responsibilities of the parties,
NTIA expressed frustration with the difficulties it encountered obtaining financial information
from the NOAA grants office. NTIA staff indicated that they did not receive sufficient
accounting information on time spent and work generated by grants office staff processing
grants. NTIA uses this accounting information to track the amounts it spends on staffing and to
plan for funding from the grants management office over the remainder of the program lifecycle.
Without adequate accounting information, NTIA management cannot effectively oversee the
funds spent to date, nor will they be able to provide justification for funding requests in future
years.
These issues are of particular concern because NTIA has not demonstrated rigorous monitoring
of the agreements. For example, the BTOP program office is ultimately responsible for
monitoring agreements with other federal agencies. However, as of August 4, 2010, the BTOP
program office stated that it had only recently received cost information on the services provided
by the NIST grants office. Also, we were told that NTIA does not have an oversight plan for the
agreements with these other federal agencies. NTIA officials told us that the level of oversight
was limited because they did not consider implementation of the agreements to be a high-risk
area. Only after the agencies have reached an understanding on what the agreements represent,
and after NTIA has performed a thorough analysis of NOAA’s and NIST’s charges, can NTIA
management be certain that the best work is being done with the limited administrative funds
available.
While NTIA’s payments to NIST and NOAA for grants management services represent a small
portion of program costs, the program must have the benefit of thorough oversight. Moreover,
the relationships with the grants offices need to be addressed, as most awards are expected to be
open for 3 years, and mapping grants for 5 years, beyond September 30, 2010.


Recommendations
We recommend that NTIA
       1.	 ensure that roles, responsibilities, and deliverables are clearly defined in interagency
           agreements; and
       2.	 develop and follow a plan to oversee services performed by other federal agencies and on
           behalf of NTIA.

                                                            
4
     U.S. Department of Commerce, April 2010. Commerce Acquisition Manual.§ 1317.570, p.10. 


                                                               8
 
U.S. Department of Commerce                                           Final Report No. OIG-11-005-A

Office of Inspector General                                                        November 4, 2010 



B. NTIA Staff Members Have Not Received Sufficient Technical Knowledge Transfer
   Documentation and Training to Effectively Maintain Contractor Provided IT Systems
BTOP includes both experienced and first-time federal fund recipients, among them for-profit
entities, state and local governments, and non-profit institutions. Therefore, information systems
are essential for effective communication, receipt and maintenance of grant recipient compliance
data, and documentation. In addition, accountability and transparency requirements prescribed
by the Recovery Act further stress the importance of efficient and effective information systems.
NTIA contracted with Booz Allen Hamilton (BAH) through the Department of Interior to
provide comprehensive assistance in implementing the program, including engaging BAH and its
subcontractors to develop and implement new applications for monitoring and overseeing grant
projects:
   •	 The Management Dashboard Tool (MDT), a commercial off-the-shelf application, was
      delivered by BAH through a third-party vendor as a part of the contract to help NTIA
      implement BTOP. MDT was designed to provide summary-level information about
      awarded grants for NTIA senior management and program staff. The data include maps
      navigable by state; maps viewable by recipient type, goal area, dollar value, and grant
      received; and data related to quarterly budget expenditures and drawdown rates. MDT
      was implemented on March 15, 2010.
   •	 The Post-Award Monitoring (PAM) system was developed to provide a workspace for
      submitting and reviewing recipient reports, housing documents for most recipient data,
      and storing program documentation. The system enables collaboration between grant
      recipients and grants officers. PAM was deployed on July 9, 2010.
MDT is currently being hosted and supported by the third-party vendor contracted through BAH.
Any changes or upgrades to the database, application, and supporting infrastructure are made by
the vendor. There are plans to move the hosting of MDT over to the National Technical
Information Service (NTIS) in October 2010. PAM is currently being hosted by NTIS; therefore,
NTIS performs the maintenance and support of the system’s infrastructure. Specifically, NTIS
manages and monitors BAH’s access to the PAM infrastructure but does not make changes to the
application code or database objects and structure.
It is still too early in its deployment to assess whether PAM will effectively provide the
environment envisioned by NTIA to manage its estimated workload. PAM was used for the first
time to accept and process July 31, 2010, required reports. The degree of accuracy and timeliness
of reporting this information should give some indication of the system’s effectiveness and
reliability. Although MDT was deployed in March, it could not provide complete information in
its reports because a portion of its data was to come from PAM. Therefore, it is also too early to
draw conclusions about MDT’s success as a reporting tool.
BAH served as the system integrator for MDT and as both developer and system integrator for
PAM. NTIA purchased licenses for both applications; however, it only owns the source code for
PAM. But as neither NTIA nor NTIS IT staff actually developed the primary application source
code or its customizations, they do not have intimate working knowledge of the application or its
database construct. Documentation such as network/infrastructure schematics, installation
guides, hardware and software requirements, functional diagrams, and release notes were
provided to NTIA for both applications. However, no application code reviews were conducted


                                                9
 
U.S. Department of Commerce                                                             Final Report No. OIG-11-005-A

Office of Inspector General                                                                          November 4, 2010 



by NTIA or NTIS, and BAH has not provided technical programming documentation that could
enable a cohesive knowledge transfer. This being the case, if BAH finds it necessary to replace
or reassign key technical staff to other engagements (as often happens with consulting firms), or
for any other reason cannot fulfill the entire contract term, it could adversely affect BTOP.
Specifically, further development or even troubleshooting of production problems for the
applications might prove difficult for NTIA without substantial input from BAH.
This transfer of IT knowledge is of particular concern because NTIA is a relatively small-staffed
agency charged with the execution of a major program, and it has relied heavily on the expertise
and capabilities of BAH in virtually every aspect of BTOP. As a result of this engagement, BAH
has acquired considerable institutional knowledge, which has worked well for NTIA throughout
the program’s implementation. However, because BAH personnel are so heavily involved in the
program and significantly exceed the number of NTIA staff, it does not appear likely or possible
that a complete knowledge transfer can successfully occur.


Recommendations

We recommend that NTIA
       1.	 evaluate PAM and MDT once the systems are processing reports for all award recipients
           to ensure that both have been implemented in accordance with the business and
           functional requirements of the contract; and
       2.	 define and document an overall program transition plan to include specific provisions for
           a technical knowledge transfer from BAH to the NTIA and NTIS staff, as well as hold
           knowledge transfer sessions on a periodic basis.


C. While NTIA Has Made Progress in Documenting BTOP Policies and Procedures,
   Additional Steps Should Be Taken
GAO’s Internal Control Standards state that “…all transactions and other significant events need
to be clearly documented, and the documentation should be readily available for examination.”5
As BTOP is a new program, NTIA has had to develop and document all new procedures. While
we acknowledge NTIA has taken significant steps in the development process, more remains to
be done.
For post-award, NTIA developed the BTOP Post-Award Concept of Operations (CONOPS),
which outlines the organizational structure of the BTOP office, key roles and responsibilities for
each position in the organization, and the overall post-award monitoring process. CONOPS
serves as the basis for the Federal Program Officer [FPO] Handbook Volume I: Post-Award
Procedures for Grants, Management, Reporting and Compliance, the BTOP Recipient
Handbook, and the FY10 BTOP Monitoring Plan (see table 3).




                                                            
5
     GAO, November 1999. Standards for Internal Control in the Federal Government. GAO/AIMD-00-21.3.1, p. 15. 


                                                               10
 
U.S. Department of Commerce                                            Final Report No. OIG-11-005-A

Office of Inspector General                                                         November 4, 2010 



        Table 3. BTOP Documentation on Post-Award Policies and 

                            Procedures 

                   Release       Target
     Title                                                     Brief Description
                    Date         Group

                  March 23,                  Basis for conducting BTOP
  CONOPS                       NTIA staff
                   2010                      Describes roles and responsibilities of federal staff

                                             Describes roles and responsibilities of FPOs
                                             Outlines the relationship between FPOs and other
    FPO            June 9,                   staff (grants officers, contractors, other federal staff)
                               NTIA staff
  Handbook          2010                     Describes business processes for conducting BTOP
                                             work
                                             Describes systems used for managing work

                                             Describes responsibilities of recipients of federal
                                             grants
   BTOP                          BTOP        Describes responsibilities under Recovery Act
                  June 23,
  Recipient                      grant       Outlines procedures for fulfilling requirements under
                    2010
  Handbook                     recipients    federal grant agreements
                                             Describes systems used for reporting and drawing
                                             down funds
                                             Outlines the concepts for monitoring grants
 FY10 BTOP
                   July 14,                  Describes the method of review of grants
  Monitoring                   NTIA staff
                    2010                     Describes the levels of monitoring for each grant,
    Plan
                                             based on risk
Source: OIG

Our review of CONOPS found that it provides a reasonable basis for outlining the
implementation and monitoring of BTOP awards. Also, the handbooks for FPOs and recipients
provide useful guidance to their audiences. However, several areas of the monitoring plan need
improvement. Specifically, the plan
   •	 calls for the use of review templates to guide FPOs but does not include examples of the
      templates;
   •	 does not specify the method of documentation that will be developed to document
      grantees’ issues and track progress addressing these issues;
   •	 does not describe how the data will be used to identify potential trends among recipients
      so that timely corrective actions can be taken;
   •	 does not provide guidance on what the FPO or grants officer should do if fraud, waste, or
      abuse is detected (nor does it specify any consequences if corrective action plans are not
      followed by recipients); and
   •	 does not identify how federal staff should monitor the internal controls of recipients to
      assure the prescribed processes are being followed.



                                               11
 
U.S. Department of Commerce                                                    Final Report No. OIG-11-005-A

Office of Inspector General                                                                 November 4, 2010 



We communicated our concerns with BTOP officials in an August 4, 2010, meeting to discuss
potential findings. NTIA stated that the monitoring plan was a high-level document and that
more detail would be added to the FPO Handbook; we were told that NTIA would address our
concerns and use results from its initial post-award reviews to strengthen the FPO Handbook.


Recommendation
We recommend that NTIA
       1.	 revise post-award guidance (e.g., the FPO Handbook) to more comprehensively define
           the procedures that FPOs should follow in the oversight of BTOP grant awards.


D. Internal Controls over Professional Development and Training Are Not Robust
An adequately trained federal program office staff is essential to ensure consistent, equitable, and
transparent monitoring of grant recipients. GAO’s Standards for Internal Control in the Federal
Government states that management needs to identify appropriate knowledge and skills needed
for various jobs and to provide needed training.6
To meet this challenge, effective internal controls are needed to plan and track training. NTIA
has extensively used webinars and conference workshops to train federal program office staff
and grant recipients, and has also arranged for vendor-provided on-site training on grants
management issues. While NTIA has provided ample training to federal personnel as well as
recipients, NTIA should strengthen its internal controls over professional development and
training by
       •	 formalizing its process for identifying the professional development and training needs of
          its staff, and
       •	 improving its process for verifying attendance at training events and tracking the training
          that has been taken.
We found that FPOs do not have development plans that articulate the training and/or other
development activities that they should take to meet certain core competencies. Therefore,
limited confidence can be placed on whether future and ongoing training needs for individuals
are appropriately identified.
In order to verify appropriate training has been completed, Department of Commerce Human
Resources Bulletin Number 076 on training policy requires that each bureau maintain and report
accurate training data. NTIA utilizes a spreadsheet to monitor training; however, officials were
unable to provide OIG with sufficient evidence of training attended and completed by NTIA
staff. NTIA’s training tracker provided information related to dates, subject, facilitator, materials,
and location, but did not record which staff members attended and successfully completed
training.



                                                            
6
    GAO, November 1999. Standards for Internal Control in the Federal Government. GAO/AIMD-00-21.3.1, p.7-8.


                                                               12
 
U.S. Department of Commerce                                                        Final Report No. OIG-11-005-A

Office of Inspector General                                                                     November 4, 2010 



Recommendations

We recommend that NTIA
       1.	 strengthen internal controls to ensure training is identified, taken, recorded, and tracked
           for FPO staff supporting BTOP award monitoring. 


E. Some Aspects of BTOP Award Monitoring Are Not Being Completed in a Timely or
   Efficient Manner
Monitoring grantee performance helps ensure that the goals of grants are reached and required
deliverables are completed.7 Ineffective grant monitoring increases the risk of untimely
expenditures and may also result in an increased risk of fraud.
Awards made between December 2009 and April 2010 have provided NTIA with opportunities
to implement several of its monitoring processes, to include
         •	 evaluating whether recipients have achieved satisfactory progress against special award
            conditions (e.g., accounting system verifications and environmental assessments);
         •	 ensuring that financial, performance, and Recovery Act reporting requirements are met;
            and
         •	 performing initial desk review audits to assess the risks associated with a particular
            recipient.
Grant award SACs are used to either provide guidance to recipients or require specific actions
for complying with the grant award. In some cases, SACs limit or prohibit other actions until the
award condition is complete.8
We randomly selected 40 of 82—approximately 49 percent—of the first-round BTOP grants to
test whether SAC documentation, including environmental assessments, was submitted timely
and properly approved. While we found a few instances where documentation was not submitted
in a timely manner, the overall monitoring of SAC completion was sufficient. Specifically,
environmental assessments were submitted on time, extensions granted were justified, and
evidence of a thorough environmental assessment review process existed. In addition, NTIA
closely monitored the status of required consultations and worked with the recipient to complete
any that were outstanding.
NTIA and its supporting grants offices review (1) Recovery Act reports that provide data on the
types and number of jobs created, (2) financial reports that provide performance data on key
financial indicators, and (3) program performance reports that provide data on key programmatic
milestones and indicators. Recipients of BTOP grants are required to satisfy several reporting
requirements that provide valuable information on performance and transparency of activities,
and facilitate monitoring of the program. The grants officer, with NTIA support, is responsible
for reviewing the Recovery Act and financial reports; NTIA is responsible for reviewing the
program performance reports. A review of financial and performance progress reporting in the
                                                            
7
     Domestic Working Group, October 2005. Guide to Opportunities for Improving Grant Accountability. p.25. 
8
     BTOP Recipient Handbook FY 2010. June 23, 2010. p. 17.


                                                               13
 
U.S. Department of Commerce                                            Final Report No. OIG-11-005-A

Office of Inspector General                                                         November 4, 2010 



same sample of 40 awards found that 5 of the files (13 percent) contained deficiencies in
reporting. Of those, one was more than 15 days overdue, two were fewer than 15 days overdue,
and two others did not contain the required signature of the authorizing official. We did not
review Recovery Act reporting requirements as they are being covered by a separate OIG
review.
Monitoring activities such as desk reviews and site visits will generate voluminous data about the
progress of recipients in completing grant projects, concerns NTIA identifies about award
implementation, and corrective actions to address noted deficiencies. For its first set of desk
reviews, performed in July and August 2010, NTIA placed the results on a shared network drive.
However, this approach does not facilitate the efficient aggregation and manipulation of
information needed for program-wide analyses. We were told that PDFs that can be queried
could have collected the data more easily, but were not used for the first set of reviews due to
schedule constraints. NTIA officials noted that their current approach has limitations and that
they will be looking for ways to improve the process in the future.


Recommendations

We recommend that NTIA
    1.	 continue to closely monitor the completion of SACs;
    2.	 work with NIST and NOAA grants offices to ensure that reports are received timely; and
    3.	 take steps to more efficiently use the data collected in monitoring efforts when analyzing
        recipient performance and tracking any corrective actions.




 




                                                14
 
U.S. Department of Commerce                                           Final Report No. OIG-11-005-A

Office of Inspector General                                                        November 4, 2010 



                   Summary of Agency Comments and OIG Response


In responding to our draft report, the Assistant Secretary for Communications and Information
summarized the steps NTIA is taking to address our recommendations. Where appropriate, we
modified this final report to incorporate NTIA’s comments.
NTIA notes that it has overcome a number of challenges in implementing the program, but
admits that improvements are needed for the program to be more effective. In its response, NTIA
discusses the significant actions it has taken to establish a comprehensive oversight framework,
details its efforts to continue the program without an appropriation, and notes the need to secure
funding after December 3, 2010. The response cautions that a lack of funding would adversely
affect the technical assistance and monitoring NTIA feels is essential to effectively monitor its
grant awards.
We share NTIA’s concern about the impact of inadequate funding to oversee the grant awards,
specifically its abilities to protect against waste, fraud, and abuse and to ensure program
objectives are met. Therefore, we updated our finding on the challenge that uncertain funding
poses to NTIA’s oversight of broadband grants to reflect the current status of program funding
and the importance of securing funding to administer BTOP.
Furthermore, NTIA agrees that strengthening its post-award monitoring and oversight will be
critical to the successful implementation of BTOP projects. NTIA does note that hiring
additional staff to enable a technology knowledge transfer from BAH to NTIA and NTIS staff
would be impractical. However, we did not intend to recommend that NTIA hire more personnel,
but that NTIA should ensure current staff obtain the technical knowledge necessary to continue
IT development and support in the event BAH was unable to provide it. Therefore, we reaffirm
our recommendation that NTIA address the current knowledge and skills gaps that exist.
We encourage NTIA to work with the Department, the Office of Management and Budget, and
Congress to secure funding to oversee the BTOP grant awards. Also, we are pleased that NTIA
has begun to improve the administration of the program. We look forward to reviewing the
NTIA action plan that will address these concerns in more detail.




                                                15
 
U.S. Department of Commerce                                           Final Report No. OIG-11-005-A

Office of Inspector General                                                        November 4, 2010 



                    Appendix A: Objectives, Scope, and Methodology


We initiated this audit in April 2010 because we recognized that NTIA faced significant
challenges in performing post-award activities while concurrently conducting a second round of
making broadband awards. The objectives of the audit include (1) assessing the capabilities of
the systems that NTIA will use to monitor recipients of BTOP awards; (2) determining whether
NTIA is establishing post-award operations and processes to facilitate the effective execution of
BTOP; and (3) evaluating whether NTIA is taking appropriate steps to implement a program
office to perform the essential post-award oversight and monitoring of BTOP recipients,
including post September 30, 2010.
Although it presents information on grant awards through September 30, 2010 , this review
covers only post-award activities for BTOP awards issued between December 2009 and April
2010. We obtained an understanding of internal controls for the BTOP post-award process by

   •	 interviewing NTIA, BAH, and NTIS IT representatives to gain an understanding of the
      key systems’ functions and key IT controls;
   •	 interviewing BTOP officials to obtain information on NTIA’s organization structure and
      initial post-award efforts;
   •	 attending a post-award workshop and multiple webinars on BTOP compliance issues
      provided to program office personnel and recipients;
   •	 reviewing manuals providing guidance to recipients of awards and federal program staff
      on and implementing and monitoring post-award activities;
   •	 attending BTOP all-hands staff meetings and quarterly meetings with BAH; and
   •	 meeting with NTIA officials to discuss BTOP resources for post-award, including 

      resources post September 30, 2010. 

To assess the capabilities of the systems that NTIA uses to monitor recipients of BTOP awards,
we performed the following:
   •	 reviewed the BAH contract and supporting IT specific modifications;
   •	 attended system functionality demonstrations for both MDT and PAM (pre- and post-
      production for PAM) to understand the systems’ functionality;
   •	 obtained and reviewed documentation related to system certification and accreditation for
      both MDT and PAM; documentation included but was not limited to security plans, risk
      assessments, vulnerability assessments, and plans of action; and
   •	 obtained and reviewed for reasonableness the service level agreement between NTIA and
      Xservices (BAH’s hosting partner) and the MOU between NTIA and NTIS.
We reviewed BTOP compliance with applicable provisions of pertinent laws and regulations,
including:




                                                16
 
U.S. Department of Commerce                                             Final Report No. OIG-11-005-A

Office of Inspector General                                                          November 4, 2010 



   •	 The American Recovery and Reinvestment Act of 2009

   •	 The July 9, 2010, Notice of Funds Availability for the Broadband Initiative Program and
      the Broadband Technology Opportunities Program

   •	 Department of Commerce Updated Interim Grants Manual

   •	 The National Environmental Policy Act of 1969

   •	 National Historic Preservation Act
While we identify and report on internal controls deficiencies, no incidents of fraud, illegal acts,
violations, or abuse were detected during our audit.
To test NTIA’s efforts to monitor recipient compliance with special award conditions and
reporting requirements relating to financial and performance progress reporting, we randomly
selected a sample of 40 awards, including infrastructure, PCC, and SBA projects. In completing
our reviews, we

   •	 verified form CD-450s had been completed;
   •	 determined whether actionable SACs were completed appropriately;
   •	 verified amendments were issued and properly approved for completed special award
      conditions, where applicable; and
   •	 tested quarterly performance and financial reports for completion, accuracy, and timely
      submission.
With regards to data reliability, most computer-generated information was used for background
purposes. In testing relating to BTOP oversight of special award conditions and report
monitoring, we assessed the reliability of Grants Online by interviewing program officials
knowledgeable about the system and its data and reviewing related audit reports, including the
Department of Commerce’s FY 2009 Performance and Accountability Report, which covered
grant processing at NOAA. We determined that the data were sufficiently reliable for purposes
of this report. For our testing at NIST, we reviewed paper files.
Our work was performed in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.
We conducted our review from April through August 2010 under the authority of the Inspector
General Act of 1978 and Department Organization Order 10-13. We performed our work at the
Department of Commerce headquarters in Washington D.C.; at NIST in Gaithersburg, Maryland;
and at NOAA in Silver Spring, Maryland.




                                                 17
 
U.S. Department of Commerce                                 Final Report No. OIG-11-005-A

Office of Inspector General                                              November 4, 2010 



                      Appendix B: Agency Response to Draft Report




 


                                          18
 
U.S. Department of Commerce          Final Report No. OIG-11-005-A

Office of Inspector General                       November 4, 2010 



 




                                                                    



                              19
 
U.S. Department of Commerce              Final Report No. OIG-11-005-A

Office of Inspector General                           November 4, 2010 





                                                                        

                               



                                  20
 
U.S. Department of Commerce          Final Report No. OIG-11-005-A

Office of Inspector General                       November 4, 2010 





 




                              21
 
U.S. Department of Commerce          Final Report No. OIG-11-005-A

Office of Inspector General                       November 4, 2010 





 


                              22
 
U.S. Department of Commerce          Final Report No. OIG-11-005-A

Office of Inspector General                       November 4, 2010 





(ARR-19899-1)



                              23
 
